NO. 20-414
In the

Supreme Court of the United States
ROVI GUIDES, INC.,
Petitioner,
V.

COMCAST CABLE COMMUNICATIONS, LLC,
AND UNITED STATES OF AMERICA,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(ii), the Brief for Comcast
Cable Communications, LLC in Opposition contains 1,299 words, excluding the parts
of the petition that are exempted by Supreme Court Rule.
Dated: October 30, 2020

Respectfully submitted,

Arn Jacobsen

